TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Office of Safeguards Should Improve
               Management Oversight and Internal Controls
                  to Ensure the Effective Protection of
                        Federal Tax Information



                                     September 15, 2014

                             Reference Number: 2014-20-059




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


THE OFFICE OF SAFEGUARDS SHOULD                       at agencies receiving FTI and 2) does not
IMPROVE MANAGEMENT OVERSIGHT                          conduct on-site review tests on each
AND INTERNAL CONTROLS TO ENSURE                       agency’s background investigation policies
THE EFFECTIVE PROTECTION OF                           and procedures.
FEDERAL TAX INFORMATION                               Effective controls have not been established to
                                                      ensure that the IRS’s annual report on the
                                                      safeguards of agencies that receive FTI is timely
Highlights                                            submitted to the required U.S. congressional
                                                      committees. In addition, policies and
Final Report issued on                                procedures do not require that information
September 15, 2014                                    technology security test plans be designed with
                                                      subtests weighted according to risk.
Highlights of Reference Number: 2014-20-059
                                                      WHAT TIGTA RECOMMENDED
to the Internal Revenue Service Deputy
Commissioner for Operations Support.                  TIGTA recommended that the Deputy
                                                      Commissioner for Operations Support ensure
IMPACT ON TAXPAYERS                                   that on-site agency reviews are conducted prior
Internal Revenue Code Section 6103 authorizes         to the release of FTI for any new systems or
the IRS to disclose Federal Tax Information           agencies receiving FTI for the first time unless
(FTI) to various Federal agencies, State and          an independent security assessment or IRS
local entities, and U.S. territories. It also         risk-based assessment is performed that
requires recipients of FTI to establish effective     includes the IRS requirements for the security of
safeguards for ensuring that taxpayer                 FTI and the assessment is reviewed and
information is protected from unauthorized use        approved/prepared by the Office of Safeguards;
and disclosure. If required safeguards for FTI        establish and ensure that background
are not established and maintained, the FTI is at     investigation requirements for all agency
an increased risk of unauthorized use and             employees and contractors with access to FTI
disclosure.                                           are consistent with the IRS’s background
                                                      investigation requirements; ensure that
WHY TIGTA DID THE AUDIT                               background investigation validation tests are
                                                      conducted during on-site agency reviews;
This audit was initiated to determine if the Office
                                                      improve congressional reporting timeliness; and
of Safeguards provides adequate oversight of
                                                      improve on-site information technology security
the agencies that receive FTI. Federal
                                                      testing processes.
regulations govern the confidentiality of FTI
provided to agencies, and agencies must follow        In their response to the report, IRS management
those requirements to receive it.                     partially agreed with the first recommendation
                                                      and agreed with the other seven. The IRS plans
WHAT TIGTA FOUND                                      to conduct an initial risk-based assessment
While the Office of Safeguards conducts on-site       before authorizing the release of FTI to an
agency reviews to ensure that adequate                agency for the first time and develop a
safeguards are maintained, the reviews are            comprehensive policy to detail requirements;
conducted after FTI is released to agencies.          develop specific background investigation
This occurs in part because the IRS’s Internal        requirements for external agency employees
Revenue Manual does not require the                   and the agency’s contractors authorized to
performance of on-site validation of an agency’s      access FTI; conduct background investigation
ability to protect FTI prior to its release to the    validation tests; and timely submit reports to
agency.                                               Congress. The IRS also deployed a new
                                                      management information system to provide
In addition, the Office of Safeguards 1) does         enhanced tracking capabilities for the list of
not set specific background investigation             active agencies, reports, and related documents.
requirements for employees and contractors
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 15, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Office of Safeguards Should Improve
                             Management Oversight and Internal Controls to Ensure the Effective
                             Protection of Federal Tax Information (Audit # 201320029)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) Office of Safeguards effectively provides oversight of agencies that receive Federal Tax
 Information. This review is included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2014 Annual Audit Plan and addresses the major management challenge of Security
 for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Danny Verneuille, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                   The Office of Safeguards Should Improve
                             Management Oversight and Internal Controls to Ensure
                              the Effective Protection of Federal Tax Information




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Office of Safeguards Does Not Conduct
          On-Site Reviews of Agencies Prior to Release
          of Federal Tax Information ........................................................................... Page 4
                    Recommendation 1:........................................................ Page 5

          The Office of Safeguards Does Not Require and
          Ensure That Agencies Conduct Proper Background
          Investigations ................................................................................................ Page 6
                    Recommendations 2 and 3: .............................................. Page 8

          The Office of Safeguards Needs to Strengthen Its
          Congressional Reporting and On-Site Information
          Technology Security Testing Processes........................................................ Page 8
                    Recommendation 4:........................................................ Page 9

                    Recommendation 5:........................................................ Page 10

          The Office of Safeguards’ Program Controls Need
          Improvement ................................................................................................. Page 10
                    Recommendations 6 through 8:......................................... Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Glossary of Terms ................................................................ Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 23
               The Office of Safeguards Should Improve
         Management Oversight and Internal Controls to Ensure
          the Effective Protection of Federal Tax Information




                    Abbreviations

ACA           Affordable Care Act
CAP           Corrective Action Plan
FTI           Federal Tax Information
GLDS          Governmental Liaison, Disclosure, and Safeguards
I.R.C.        Internal Revenue Code
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
SAR           Safeguards Activity Report
SPR           Safeguard Procedures Report
SRR           Safeguard Review Report
                               The Office of Safeguards Should Improve
                         Management Oversight and Internal Controls to Ensure
                          the Effective Protection of Federal Tax Information




                                             Background

The Internal Revenue Service (IRS) provides Federal Tax Information (FTI)1 to approximately
280 Federal agencies, State and local entities, and U.S. territories (hereafter referred to as
agencies). It is authorized under Internal Revenue Code (I.R.C.) Section (§) 6103 to disclose
FTI to agencies. The agencies use FTI for various reasons such as to locate delinquent
taxpayers, assist in determining whether a taxpayer can pay on a defaulted debt, and determine
whether discrepancies exist in the reporting of income.
I.R.C. § 6103(p)(4), Internal Revenue Manual Section (IRM) 11.3.36,2 and IRS
Publication 1075, Tax Information Security Guidelines For Federal, State, and Local Agencies,3
require recipients of FTI to establish procedures to ensure the adequate protection of FTI
received. I.R.C. § 6103(p)(4) and (7) authorizes the IRS to remove FTI if misuse and/or
inadequate safeguards are in place to protect it from unauthorized use and disclosure. The Office
of Safeguards (hereafter referred to as the Office) is in the Governmental Liaison, Disclosure,
and Safeguards (GLDS) function of the Privacy, Governmental Liaison, and Disclosure business
unit within the IRS Operations Support organization and has oversight responsibility of agencies
that receive FTI subject to I.R.C. § 6103(p)(4) to ensure that adequate safeguards are maintained.
The IRS is responsible for producing and revising Publication 1075, which provides guidance to
agencies regarding the required safeguard procedures necessary to protect FTI.
Before agencies can receive FTI, they must submit a formal report called a Safeguard Procedures
Report (SPR) that describes how the agency will protect and safeguard FTI in accordance with
I.R.C. § 6103(p)(4), IRM 11.3.36, and Publication 1075. Agencies are then required to submit
an SPR every six years or when significant changes in their safeguard procedures occur. In
addition to the SPRs, agencies must submit annually a Safeguards Activity Report (SAR) to
describe any changes to their safeguard procedures, advise of future actions that will affect such
procedures, and certify they are protecting FTI in accordance with I.R.C. § 6103(p)(4),
IRM 11.3.36, and Publication 1075. The SPRs must be reviewed by the Office within
60 calendar days of receipt, and the SARs must be reviewed within 45 calendar days of receipt.

Agency reviews
On-site reviews of agencies receiving FTI are required to be conducted by the Office a minimum
of once every three years. The reviews are designed to ensure compliance with
I.R.C. § 6103(p)(4), IRM 11.3.36, and Publication 1075 regarding recordkeeping, secure storage,
restricting access, other safeguards related to employee awareness and internal inspections,

1
  See Appendix IV for a glossary of terms.
2
  Dated Aug. 2008.
3
  Dated Aug. 2010.
                                                                                           Page 1
                                       The Office of Safeguards Should Improve
                                 Management Oversight and Internal Controls to Ensure
                                  the Effective Protection of Federal Tax Information


reporting requirements, and disposal. The on-site agency reviews are generally conducted over a
three-day period.
The Office’s review teams are made up of disclosure enforcement specialists and information
technology specialists. Disclosure enforcement specialists lead the reviews and are responsible
for reviewing the agencies’ physical security, privacy, and disclosure policies and procedures.
Most of the information technology specialists are contract employees and perform information
technology security reviews under the direction of the review team’s lead disclosure enforcement
specialists. The review teams use test plans to assist in validating the adequacy of the agencies’
safeguard controls and are generally designed in accordance with I.R.C. § 6103(p)(4) and the
National Institute of Standards and Technology’s Special Publication 800-53, Recommended
Security Controls for Federal Information Systems and Organizations, Revision 3, controls.4
Once an on-site review has been completed, the review team provides the agency an interim
report and a draft findings document called an interim Corrective Action Plan (CAP) report that
lists any deficiencies found during the review. The agency is then required to respond through
written statements and/or supporting documentation of the corrective actions that have been or
will be taken to address the identified deficiencies. The interim report and interim CAP report
are required to be issued within 45 calendar days of the on-site review closing conference that is
held on the last day of the on-site review. The agency has 45 calendar days to respond to the
interim report, after which the review team has 45 calendar days to issue a final report and a final
CAP report. Figure 1 illustrates the 45 calendar day requirement.
                           Figure 1: Timeline of Requirements for the Office’s
                         Report Issuance and for Agencies’ Response to Reports
The Office of Safeguards’                                                      The agency responds
                                            The review team                                                            The review team
 review team conducts a                                                       to the interim report by
                             45 Calendar   issues the interim   45 Calendar                              45 Calendar    issues the final
 closing conference with                                                        detailing its planned
                                Days        report and CAP         Days                                     Days        report and final
  the agency on the last                                                       actions to receive the
                                                 report.                                                                  CAP Report.
day of the on-site review.                                                             findings.


    Source: The Office’s preliminary report documents provided to agencies and discussed with management.

In addition, responsibilities of the Safeguard Program were recently expanded. The Patient
Protection and Affordable Care Act of 20105 and the Health Care and Education Reconciliation
Act of 20106 (hereafter collectively referred to as the Affordable Care Act (ACA)) were both
signed into law in March 2010. The ACA seeks to provide more Americans with access to
affordable health care by creating a new Health Insurance Exchange, enforcing patient/consumer
protections, and providing Government subsidies for people who cannot afford insurance. The
exchange provisions of the ACA are centered on implementing tax provisions associated with

4
  Dated Aug. 2009.
5
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
6
  Pub. L. No. 111-152, 124 Stat. 1029. (See Affordable Care Act, infra).
                                                                                                                              Page 2
                           The Office of Safeguards Should Improve
                     Management Oversight and Internal Controls to Ensure
                      the Effective Protection of Federal Tax Information


Federal and State health insurance exchanges. Under these provisions, the IRS is required to
support eligibility and enrollment in health insurance exchanges by providing income and family
size information that is classified as FTI. The IRS must provide this FTI disclosure to the
U.S. Department of Health and Human Services, which will disclose FTI to the health care
exchanges for use in the determination of health care qualifications and subsidies. The Office is
responsible for oversight of this disclosure and ensuring that the exchanges have required
safeguards in place. We are currently conducting an information technology security audit
focused specifically on the processes used by the IRS to review and approve ACA-related
requests for FTI based on the SPRs submitted by ACA agencies.
This review was performed at the Office of Safeguards in Dallas, Texas, the Texas Office of
Attorney General Child Support in Austin, Texas, and the Montana Department of Revenue
offices in Helena, Montana, during the period May 2013 through May 2014. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                           The Office of Safeguards Should Improve
                     Management Oversight and Internal Controls to Ensure
                      the Effective Protection of Federal Tax Information




                                Results of Review

The Office of Safeguards Does Not Conduct On-Site Reviews of
Agencies Prior to Release of Federal Tax Information
I.R.C. § 6103(p)(4), IRM 11.3.36, and Publication 1075 require agencies that request or receive
FTI provide to the IRS a report that describes safeguards established and used by the agency for
ensuring that FTI is protected. Therefore, the agencies and their contractors must file an SPR
with the IRS and obtain approval prior to the receipt of FTI. The SPR must describe how the
agency and its contractors will protect and safeguard FTI in accordance with I.R.C. § 6103(p)(4),
IRM 11.3.36, and Publication 1075. The SPR must contain written descriptions and supporting
documentation that provide sufficient evidence that FTI is protected at all points where it is
received, processed, stored, and/or maintained.
After the SPR has been submitted, the Office reviews the document to determine if there is
sufficient documented evidence that the safeguards established adequately secure FTI. If the
SPR is approved by the Office, the IRS releases the requested FTI without on-site verification
that the controls, processes, and procedures are actually established. The Office does not
perform independent validation of the information provided on the SPR until an on-site agency
review is conducted by the Office review team. On-site agency reviews are scheduled by the
Office a minimum of one to three years after an agency has begun receiving FTI.
In addition, we conducted preliminary work in August 2013 on the GLDS business unit’s efforts
to approve agencies that requested FTI due to the ACA. The GLDS business unit created a
separate ACA review team to handle the ACA-related SPR review and approval process. The
ACA review team was not a part of the Office and reported to the Director, Privacy,
Governmental Liaison, and Disclosure. These ACA-related SPRs were tracked, controlled, and
approved by this separate review team. The ACA review team stated that it conducted on-site
agency reviews that entailed some validation prior to SPR approval. However, the on-site
reviews were conducted before the agency systems and procedures were fully developed and
implemented. Once the SPR was approved, the FTI was released and the Office was instructed
to add these approved ACA-related agencies to its on-site review schedule. At the time of our
review, agencies in 27 States had requested or planned to request FTI in support of fulfilling
their responsibilities related to the ACA legislation. This separate review team was operating
independent of the Office’s normal SPR review process for receiving FTI and developed its own
procedures for reviewing ACA-related SPR submissions and approvals.
While the IRM requires the Office to conduct on-site agency reviews once every three years, it
does not require the Office to perform on-site validation of an agency’s ability to protect FTI


                                                                                          Page 4
                            The Office of Safeguards Should Improve
                      Management Oversight and Internal Controls to Ensure
                       the Effective Protection of Federal Tax Information


prior to its release to the agency. IRM 11.3.36 states that on-site reviews may be conducted
within 12 months of an agency initially receiving FTI.
The Office’s management stated that the SPRs submitted by the agencies provide sufficient
evidence for the Office to determine whether an agency can protect FTI at all points where it is
received, processed, stored, and/or maintained. Management does not believe it is practical to
conduct on-site reviews of agencies prior to their receipt of FTI because, in their view, the
evaluation would not determine how agencies actually are performing the safeguards established.
Additionally, management believes that review teams may only discover all agency locations of
FTI during the on-site reviews after receipt of FTI, as agencies do not always accurately
document processes on the submitted SPRs. Management also believes that if the Office
conducts on-site reviews before FTI is received by an agency, the safeguards established for all
FTI maintained could not be evaluated.
Agencies that request FTI must demonstrate the ability to safeguard FTI prior to its receipt.
When the primary assessment by the Office of an agency’s safeguarding processes, i.e., on-site
reviews, is performed one to three years after receipt of FTI, there is a significant risk that FTI
provided may be subjected to unauthorized disclosure and use. Until a complete on-site review
is conducted, FTI is vulnerable to unauthorized use and disclosure, and taxpayers cannot be
assured that their FTI is properly safeguarded.
Management actions
After the completion of our fieldwork and in discussions with the Office’s executive
management, the IRS stated that the Office is not following the IRM and that the IRM is
outdated. The IRS stated that the requirement for an on-site review to be conducted a minimum
of one to three years after an agency has begun receiving FTI is no longer the requirement. The
Office now performs a risk-based approach to conduct on-site reviews, which determines how
often an on-site review is conducted. In addition, IRS management prefers that an agency
receive FTI for a minimum of 30 calendar days prior to any on-site review.

Recommendation
The Deputy Commissioner for Operations Support should:
Recommendation 1: Establish policies and procedures to require that on-site agency reviews
are conducted prior to the initial release of FTI for any new systems or agencies receiving FTI
for the first time, unless an independent security assessment or IRS risk-based assessment is
performed that includes the IRS requirements for the security of FTI, the assessment is reviewed
and approved/prepared by the Office of Safeguards, and any significant security deficiencies
identified are resolved.
       Management’s Response: The IRS partially agreed with the recommendation. The
       IRS will conduct an initial risk-based assessment before authorizing the release of FTI to

                                                                                              Page 5
                           The Office of Safeguards Should Improve
                     Management Oversight and Internal Controls to Ensure
                      the Effective Protection of Federal Tax Information


       an agency for the first time. The Office will develop a comprehensive policy to detail
       agency requirements to include an independent security assessment, IRS risk-based
       assessment, or a modified on-site review prior to initial release of FTI. The policy will
       detail risk-based criteria for release of data as well as actions taken to mitigate certain
       vulnerabilities before approval of the data exchange. The requirement will be published
       in the next revision of Publication 1075.

The Office of Safeguards Does Not Require and Ensure That Agencies
Conduct Proper Background Investigations
Federal agencies are required to conduct a Minimal Background Investigation on all potential
employees designated as moderate risk, including individuals hired to access or use FTI. The
background investigation required for Federal employees with access to FTI includes
1) fingerprints as part of the preemployment background check; 2) a National Agency Check
plus credit search and checks at local law enforcement agencies where the subject has lived,
worked, and/or attended school within the last five years and, if applicable, of the appropriate
agency for any identified arrests; 3) a personal subject interview; 4) written inquiries to
employers, schools, and references for the past five years; and 5) a periodic reinvestigation once
every 10 years.
The IRS’s Human Resource Division requires the Federal Minimal Background Investigation for
all positions within the IRS designated as moderate risk, including positions with access to FTI.
Once completed and approved, the Minimal Background Investigation would provide an IRS
employee with a National Security Non-Critical Sensitive clearance and authorization to access
FTI if access is required to perform the employee’s official duties.
The IRS does not set specific background investigation requirements for employees and
contractors at agencies receiving FTI or for agency employees and contractors with access to
FTI. The IRS allows each agency that receives FTI to set its own background investigation
policies and requirements. Additionally, the Office does not conduct on-site review tests on each
agency’s background investigation policies and procedures or on agency employees to determine
if background investigations have been performed by the agency receiving FTI.
We selected 15 agencies currently receiving FTI. We requested each agency’s background
investigation policies and compared them to the IRS’s background investigation requirements.
None of the 15 agencies reviewed had background investigation policies that require the same
level of background investigation that is required for IRS personnel and contractors with access
to FTI. Based on our review of background policies and procedures for the 15 agencies
receiving FTI, we found:
      Four of the 15 agencies conduct fingerprint testing.
      Eleven of the 15 agencies conduct State-level background investigations.


                                                                                            Page 6
                           The Office of Safeguards Should Improve
                     Management Oversight and Internal Controls to Ensure
                      the Effective Protection of Federal Tax Information


      One of the 15 agencies conducts national-level background investigations.
      Seven of the 15 agencies may hire individuals convicted of crimes. The decision to hire
       such individuals is based on the nature of the crime committed, the time elapsed, and the
       duties of the position that would be filled.
      Two of the 15 agencies conduct additional background investigations on individuals
       hired to access data.
      One of the 15 agencies checks sex offender registries.
      Six of the 15 agencies conduct tax compliance checks.
IRS Publication 1075 does not provide explicit requirements for background investigations
agencies conduct on employees and contractors authorized to access FTI. It only requires
background investigations to be performed and suggests additional checks may be necessary
when agency employees will have access to entire sets of FTI records, e.g., database
administrators. The publication also does not require agencies to adhere to the same background
investigation requirements as IRS employees and contractors with access to FTI.
During a discussion with the Office’s executive management at the end of our fieldwork,
management stated that the IRS should set specific minimum standards that an agency must meet
for both employees and contractors with access to FTI. While executive management does not
believe these standards should be an exact replication of the Minimal Background Investigation
referenced for IRS employees, the standards should be set at a high level in Publication 1075.
The Office’s executive management believes these standards should contain requirements such
as fingerprints, national and local criminal checks, and an agency-written policy specific to FTI.
Inconsistent agency polices and background investigations are being implemented/performed for
agency employees and contractors with access to FTI. Agency employees and contractors with
access to FTI do not have to obtain the same type of background investigation as IRS employees
and contractors with access to FTI. When agency background investigation policies and
procedures are not consistent with the IRS’s background investigation policy and the Office does
not conduct tests related to background investigations, agencies may hire individuals with
backgrounds unsuited for access to FTI. The lack of specific background investigation
requirements by the Office for agency personnel and contractors with access to FTI creates a
significant risk that FTI provided may be subjected to unauthorized use and disclosure. In
addition, the IRS cannot assure taxpayers that their FTI is properly safeguarded.




                                                                                           Page 7
                           The Office of Safeguards Should Improve
                     Management Oversight and Internal Controls to Ensure
                      the Effective Protection of Federal Tax Information


Recommendations
The Deputy Commissioner for Operations Support should:
Recommendation 2: Establish and ensure that background investigation requirements for all
agency employees and contractors that have access to FTI are consistent with the IRS’s
background investigation requirements for access to FTI.
       Management’s Response: The IRS agreed with this recommendation. The Office of
       Safeguards will evaluate the current IRS standards for background investigations and
       develop specific requirements for external agency employees and the agency’s
       contractors authorized to access FTI that are subject to IRC § 6103(p)(4) oversight.
       These standards will be published in Publication 1075 and compliance will be evaluated
       as part of the on-site review process.
Recommendation 3: Include background investigation validation tests during the Office of
Safeguards’ on-site reviews for all agencies receiving FTI.
       Management’s Response: The IRS agreed with this recommendation. Once the
       specific background investigation requirements for external agencies and contractors are
       established and published, the validation testing will become part of each on-site review.
       Specific tests will be developed and training delivered to staff to ensure that a random
       sampling of investigations is evaluated.

The Office of Safeguards Needs to Strengthen Its Congressional
Reporting and On-Site Information Technology Security Testing
Processes
Management oversight of congressional reporting requirement needs
improvement
I.R.C. § 6103(p)(5) and IRM 11.3.36 require the Office to annually report to Congress on the
procedures and safeguards of agencies that receive FTI. IRM Section 11.3.36.13(2) indicates the
report will be submitted internally to the Director of the Office for approval on or before
March 31 of each year. The report is then submitted through appropriate management levels for
the IRS Commissioner’s signature before it is issued to the U.S. Congress, U.S. House of
Representatives Committee on Ways and Means, U.S. Senate Committee on Finance, and Joint
Committee on Taxation.
The Office’s annual report to Congress for Calendar Years 2010, 2011, and 2012 was not
submitted to the Director of the Office timely, and the Calendar Year 2010 and 2011 reports
were not issued to the required U.S. congressional committees timely. The Calendar Year 2010
annual report was submitted to the Office’s Director in May 2011, the Calendar Year 2011
annual report was submitted in May 2012, and the Calendar Year 2012 annual report was

                                                                                           Page 8
                           The Office of Safeguards Should Improve
                     Management Oversight and Internal Controls to Ensure
                      the Effective Protection of Federal Tax Information


submitted in April 2013. During the fieldwork for this audit, the annual reports for Calendar
Years 2010, 2011, and 2012 were all submitted to the required U.S. congressional committees in
May 2013.
The Office’s management does not have effective management controls established to ensure
that the annual report on the procedures and safeguards of agencies that receive FTI is timely
submitted to the required U.S. congressional committees. When the appropriate congressional
committees are not provided with timely reports of the procedures and safeguards of agencies
that receive FTI, the committees cannot provide timely oversight of the IRS’s FTI-sharing
activities and agencies’ accountability for securing FTI.

Agency on-site reviews of information technology security requirements need
improvement
I.R.C. § 6103(p)(4), IRM 11.3.36, and Publication 1075 require that access to FTI be restricted to
only persons whose duties or responsibilities require access. It is the responsibility of the Office
to review information technology infrastructures for agencies receiving FTI. The Office is also
required to ensure that these agencies have built required security controls, according to
I.R.C. § 6103(p)(4), IRM 11.3.36, and Publication 1075, into their information technology
infrastructures.
The Office’s information technology specialists use information technology security test plans
designed to identify vulnerabilities in agencies’ information technology environments. There are
test plans designed for each type of environment and software/application in use by the agencies.
These security test plans are comprised of multiple subtests that receive a “pass” or “fail” rating.
An overall percentage score is calculated based on the total number of tests passed versus tests
conducted. However, the test plans do not emphasize higher risk vulnerabilities as all tests are
equally weighted. This provides an overall pass rate that is not representative of the risk to the
FTI stored in these information technology environments.
The Office does not require information technology security test plans to be weighted according
to risk because it does not have written policies and procedures that require the test plans be
designed with subtests weighted according to the FTI risk to unauthorized disclosure and use.
Using information technology security tests that are equally weighted does not adequately
determine the actual risk to FTI stored in the agencies’ information technology environment.
As a result, the Office cannot attest to taxpayers that their FTI is safeguarded from unauthorized
access and use.

Recommendations
The Deputy Commissioner for Operations Support should:
Recommendation 4: Establish roles and responsibilities for ensuring that the annual report to
Congress on the procedures and safeguards of agencies that receive FTI is delivered timely.

                                                                                             Page 9
                           The Office of Safeguards Should Improve
                     Management Oversight and Internal Controls to Ensure
                      the Effective Protection of Federal Tax Information


       Management’s Response: The IRS independently took action on this issue prior to
       the recommendation. Procedures to compile the report were streamlined, and the annual
       report for Calendar Year 2013 was timely submitted to Congress.
       Office of Audit Comment: During the fieldwork for this audit, the IRS had not
       submitted its annual report to Congress for Calendar Years 2010 and 2011. After the
       audit team requested the annual reports, the IRS took action on this issue by ensuring that
       the 2010, 2011, and 2012 annual reports were submitted to Congress in May 2013.
Recommendation 5: Ensure that the significance of each information technology security
test is weighted according to the FTI risk to unauthorized disclosure and use.
       Management’s Response: The IRS agreed with this recommendation. The Office of
       Safeguards started the process of ranking each individual test case used to review systems
       based on severity. Once completed, the scoring will provide a more accurate risk-based
       ranking of devices that receive, process, store, and transmit FTI.

The Office of Safeguards’ Program Controls Need Improvement
The Office’s list of agencies receiving FTI and the agency on-site review schedule
need improvement
I.R.C. § 6103(p)(4), IRM 11.3.36, and Publication 1075 require that the IRS maintain a
permanent system of standardized records or accountings of all requests for inspection or
disclosure of FTI and of FTI inspected or disclosed. The GLDS business unit is responsible for
maintaining complete and current documentation of the agencies that receive FTI under
I.R.C. § 6103(p)(4) and records of the data elements that are provided to the agency.
The Office is also responsible, once FTI has been provided to an agency, to ensure that on-site
reviews of that agency are conducted at a minimum of once every three years. The Office
develops annual review plans for all agencies on record as receiving FTI from the IRS to ensure
that all agencies are reviewed once every three years. The Office maintains records of its on-site
reviews in the Electronic Disclosure Information Management System.
We compared the list of all agencies authorized to receive FTI to the schedules for the Office’s
on-site reviews for Fiscal Years 2011, 2012, and 2013. We found:
      Seven agencies were not reviewed within the required three-year time frame.
      Five agencies are presently scheduled to be reviewed after the required three-year time
       frame.
      Two agencies scheduled to be reviewed in Fiscal Year 2013 were not included on the list.
      Fifteen agencies on the list are not currently receiving FTI and are not designated as such.


                                                                                           Page 10
                            The Office of Safeguards Should Improve
                      Management Oversight and Internal Controls to Ensure
                       the Effective Protection of Federal Tax Information


The Office does not have sufficient management oversight and written policies and procedures in
place to ensure that all agencies are reviewed within the three-year requirement and to ensure
that the agency list is accurately and timely updated to reflect current FTI receipt status. Without
effective management oversight and written policies and procedures in place, the Office cannot
fulfill its responsibility for oversight of the safeguard controls in place at agencies receiving FTI
a minimum of every three years. The Office also cannot assure taxpayers that their FTI is
protected.

Timeliness of document delivery/receipt and reviews and the completeness of
agency files need improvement
IRM 11.3.36 and Publication 1075 require agencies to submit to the Office an SPR at a minimum
of every six years or when significant changes in their safeguarding procedures occur, and
agencies must submit an SAR annually. The SPR and SAR describe in detail the safeguard
procedures agencies implement in accordance with I.R.C. § 6103(p)(4), IRM 11.3.36, and
Publication 1075 for the safeguarding of FTI. The SPR must be reviewed after receipt by the
Office within 60 calendar days, and the SAR must be reviewed by the Office within 45 calendar
days. After the Office completes the review of the SPR or the SAR, it is submitted along with a
delivery acceptance form (reflecting the delivery dates and due dates) for quality review. Once
approved, an acceptance letter is submitted to the agency.
The Office review teams are required to conduct on-site reviews of agencies at a minimum of
once every three years. The reviews are designed to ensure compliance with I.R.C. § 6103(p)(4),
IRM 11.3.36, and Publication 1075 regarding recordkeeping, secure storage, restricting access,
other safeguards related to employee awareness and internal inspections, reporting requirements,
and disposal of FTI. After the Office review team completes an on-site review, it issues an
interim Safeguard Review Report (SRR) and an interim CAP report within 45 calendar days of
the on-site review closing conference. The agency has 45 calendar days to respond to the interim
SRR, after which the review team has 45 calendar days to issue a final SRR and a final CAP
report. Publication 1075 requires agencies to submit, to the Office, biannual CAP reports that
address any unresolved deficiencies until all deficiencies have been resolved and the corrective
actions taken have been approved by the Office. The Office’s information technology specialists
review and monitor incoming biannual CAP reports.
The Office requires agencies to correct deficiencies within the established time frame for each
category. The Office categorizes deficiencies by risk, and the risk is based on the potential for
loss, breach, or misuse of FTI. A category of catastrophic is the most serious, and agencies must
correct this type of deficiency within three months of the on-site review closing conference.
There are three other categories of deficiencies by risk: significant, which must be corrected
within six months; moderate, which must be corrected within nine months; and limited, which
must be corrected within 12 months.
The Office is required to keep workpaper documentation of its on-site reviews and mandatory
reporting requirements for all agencies that are receiving FTI. The workpapers from the Office’s
                                                                                            Page 11
                                  The Office of Safeguards Should Improve
                            Management Oversight and Internal Controls to Ensure
                             the Effective Protection of Federal Tax Information


on-site reviews provide the evidence to support the conclusions and recommendations contained
in the SRR. The workpapers serve as the connecting link between the on-site review and the
SRR, provide the sole support that the Office is fulfilling its responsibilities for oversight, and
should support the deficiencies identified and conclusions presented in the SRR.
We selected a statistically valid random sample7 of 50 agencies from a population of
280 agencies that received FTI during Fiscal Year 2013. For the selected agencies, we analyzed
the on-site review documents contained in the Office’s SharePoint site. During our review, we
identified agencies in our sample of 50 for which we were unable to perform a specific test.
When this occurred, we determined the test could not be performed for the selected agency for
three main reasons:
       1. The report/document being tested, e.g., SPR, SPR delivery acceptance form, SPR and
          SAR acceptance letters, closing conference reports, interim reports, responses to the
          interim reports, and final reports, was missing from the agency’s file in the Office’s
          database.
       2. We were unable to determine the specific outcome of the report/document for that
          specific test. For example, an agency report may have been incomplete and missing the
          necessary information or the determination of the test outcome was contingent on another
          report/document that was missing.
       3. The report/document was not applicable to the specific test for that agency. For example,
          if an agency does not receive FTI, no tests conducted would apply to that agency or the
          determination of the test outcome of a report/document was contingent on another
          report/document that was incomplete.
Therefore, for the three main reasons mentioned, the number of agencies tested for a specific
report/document will not equal the sample size of 50 because all tests could not be performed for
all agencies.
We identified several deficiencies for the sample of 50 agency files reviewed. Figure 2 provides
a summary of our sample test results for timeliness of document delivery/receipt and review.




7
    The point estimate projections, shown in footnotes, are based on a two-sided 95 percent confidence interval.
                                                                                                             Page 12
                               The Office of Safeguards Should Improve
                         Management Oversight and Internal Controls to Ensure
                          the Effective Protection of Federal Tax Information


             Figure 2: Timeliness of Document Delivery/Receipt and Review

                                                                                     Range of Calendar
                                                                Percentage             Days Over the
             Description of                    Number of            of                  Timeliness
          Timeliness Deficiency                Agencies          Agencies              Requirement
    The SPR was not timely received.              3 of 418          7.32%             286 to 814 days late
                                                            9
    The SAR was not timely received.             19 of 34           55.9%              1 to 151 days late
    The contractor did not timely review         32 of 3710         86.5%             3 to 1,276 days late
    the SPR.
    The contractor did not timely review         26 of 4311         60.5%              1 to 229 days late
    the SAR.
    The responses to interim reports             28 of 3512         80.0%              2 to 324 days late
    were not timely received.
    The biannual CAP reports were not            6 of 1313          46.2%               5 to 46 days late
    timely received.
    Corrective actions for catastrophic          9 of 1314          69.2%             162 to 927 days late
    deficiencies were not timely received.
    The interim report was not timely            13 of 3715         35.1%              9 to 551 days late
    issued.
    The final report was not timely              10 of 1816         55.6%              4 to 259 days late
    issued.
    Source: Treasury Inspector General for Tax Administration analysis of documents obtained from the Office’s
    SharePoint site.

8
  We estimate that the Office did not receive SPRs timely from 19 of the 280 agencies. We are 95 percent confident
that the true number of agencies in the population is between four and 51.
9
  We estimate that the Office did not receive SARs timely from 106 of the 280 agencies. We are 95 percent
confident that the true number of agencies in the population is between 69 and 148.
10
   We estimate that the Office did not review SPRs timely for 219 of the 280 agencies. We are 95 percent confident
that the true number of agencies in the population is between 175 and 250.
11
   We estimate that the Office did not review SARs timely for 155 of the 280 agencies. We are 95 percent confident
that the true number of agencies in the population is between 112 and 196.
12
   We estimate that the Office did not receive responses to interim reports timely from 178 of the 280 agencies. We
are 95 percent confident that the true number of agencies in the population is between 134 and 217.
13
   We estimate that the Office did not receive biannual CAP reports timely from 58 of the 280 agencies. We are
95 percent confident that the true number of agencies in the population is between 22 and 111.
14
   We estimate that the Office did not receive corrective action for catastrophic deficiencies timely from 54 of the
280 agencies. We are 95 percent confident that the true number of agencies in the population is between 26 and 93.
15
   We estimate that the Office did not issue interim reports timely to 83 of the 280 agencies. We are 95 percent
confident that the true number of agencies in the population is between 47 and 127.
16
   We estimate that the Office did not issue final reports timely to 108 of the 280 agencies. We are 95 percent
confident that the true number of agencies in the population is between 57 and 166.
                                                                                                            Page 13
                                The Office of Safeguards Should Improve
                          Management Oversight and Internal Controls to Ensure
                           the Effective Protection of Federal Tax Information


The Office maintains the on-site review records and mandatory reporting for agencies receiving
FTI using a folder for each agency on a SharePoint site. We performed testing on our sample of
50 agencies and determined that required documentation was missing from the agency folders.
Figure 3 provides a summary of the test results for missing required documentation.
            Figure 3: Missing Required Documentation From Agency Folders

                                                                    Number of                Percentage of
              Missing Required Document                             Agencies                   Agencies
     Current SPR                                                      5 of 4617                   10.9%
                                                                                18
     SPR delivery acceptance form                                     9 of 46                     19.6%
     SPR acceptance letter                                            8 of 4619                   17.4%
                                                                                20
     SAR acceptance letter                                            2 of 45                      4.4%
                                                                                21
     Closing conference report                                        4 of 45                      8.9%
                                                                                22
     Interim report                                                   4 of 43                      9.3%
                                                                                23
     Response to interim report                                       3 of 39                      7.7%
     Final report                                                     23 of 4224                  54.8%
     Source: Treasury Inspector General for Tax Administration analysis of the Office’s SharePoint site.

In addition to the results from the sample items presented in Figures 2 and 3, these on-site
reviews contained deficiencies identified by the Office reviews, but in many instances these
deficiencies were not corrected timely by the agencies. In our analysis of the review files for the
50 sampled agencies, we identified that 14 of the 50 agencies reviewed had catastrophic
deficiencies. Specifically:



17
   We estimate that the Office did not have in its database current SPRs for 28 of the 280 agencies. We are
95 percent confident that the true number of agencies in the population is between nine and 61.
18
   We estimate that the Office did not have in its database SPR delivery acceptance forms for 50 of the 280 agencies.
We are 95 percent confident that the true number of agencies in the population is between 24 and 88.
19
   We estimate that the Office did not have in its database SPR acceptance letters for 45 of the 280 agencies. We are
95percent confident that the true number of agencies in the population is between 20 and 82.
20
   We estimate that the Office did not have in its database SAR acceptance letters for 11 of the 280 agencies. We are
95 percent confident that the true number of agencies in the population is between one and 39.
21
   We estimate that the Office did not have in its database closing conference reports for 22 of the 280 agencies. We
are 95 percent confident that the true number of agencies in the population is between six and 54.
22
   We estimate that the Office did not have in its database interim reports for 22 of the 280 agencies. We are
95 percent confident that the true number of agencies in the population is between six and 54.
23
   We estimate that the Office did not have in its database a response to the interim report for 17 of the 280 agencies.
We are 95 percent confident that the true number of agencies in the population is between four and 46.
24
   We estimate that the Office did not have in its database final reports for 129 of the 280 agencies. We are
95 percent confident that the true number of agencies in the population is between 89 and 170.
                                                                                                              Page 14
                            The Office of Safeguards Should Improve
                      Management Oversight and Internal Controls to Ensure
                       the Effective Protection of Federal Tax Information


      Nine of the 14 agencies had catastrophic deficiencies that were not corrected timely.
      Six of the 14 agencies had catastrophic deficiencies between 583 and 1,017 calendar days
       old and were not corrected at the completion of our review.
      One of the 14 agencies had 19 catastrophic deficiencies, or 70 percent of the total
       deficiencies identified.
The Office’s management does not have documented policies and procedures, roles and
responsibilities, performance metrics, and performance metrics reporting to ensure that
requirements are met. Additionally, the Office only has legal enforcement authority in
I.R.C. § 6103(p)(4) and (7) to withhold FTI if agencies do not timely correct deficiencies or
establish required safeguards. The Office does not have legal authority to impose any penalties
or other enforcement tactics to compel agency compliance.
Without the receipt and submission of complete and timely reporting by the Office and agencies
receiving FTI, the Office cannot ensure that FTI received by agencies is properly safeguarded.
When documentation is missing within agency review files, there is not sufficient evidence that
the Office has performed its oversight responsibilities of agencies receiving FTI. Additionally,
the Office does not restrict an agency’s access to FTI data until deficiencies identified are
corrected. Deficiencies not corrected could lead to internal or external breaches of FTI.
Therefore, the Office cannot completely assure taxpayers that their FTI is protected.
Management actions
During this audit, the Office started to make efforts to add controls that will assist in its oversight
of agencies that receive FTI. It recently migrated to a single database, called Entellitrak.
According to the Office’s management, this new system will be the single application through
which all of the Office’s review documentation, reporting, and on-site review schedules are
tracked and maintained. Prior to the deployment of Entellitrak, three independent databases
were used to track reports, deficiencies, and related work. Management believes combining the
functionality of the three databases into one will assist in supporting and managing the Office as
more agencies request FTI.
Additionally, as of April 2013, the Office conducted status meetings with its contractor
information technology specialists to ensure that SPR and SAR reviews are conducted timely.
Office management also has a procedure that should increase the oversight of agencies by
contacting agencies when SARs and CAP reports are delinquent.




                                                                                              Page 15
                          The Office of Safeguards Should Improve
                    Management Oversight and Internal Controls to Ensure
                     the Effective Protection of Federal Tax Information


Recommendations
The Deputy Commissioner for Operations Support should:
Recommendation 6: Establish roles and responsibilities for ensuring that the master list of
agencies receiving FTI subject to I.R.C. § 6103(p)(4) from the IRS is timely updated and
maintained.
       Management’s Response: The new Entellitrak management information system
       deployed in August 2013 provides enhanced and accurate tracking capabilities for the list
       of active agencies, reports, and related documents.
Recommendation 7: Establish roles and responsibilities for ensuring that the Office of
Safeguards’ review schedule is maintained and updated timely.
       Management’s Response: The IRS agreed with this recommendation. The Office of
       Safeguards will develop a more comprehensive review schedule process that lists all
       agencies and documents all risk-based deviations from the three-year review cycle.
       There are multiple reasons to adjust the on-site review dates for certain agencies, and
       specific criteria will be implemented to ensure that proper evaluation has taken place for
       any review changes.
Recommendation 8: Establish a review process for the Office of Safeguards’ database to
ensure that all required agency documents are tracked, maintained, and accurately documented in
each agency’s file.
       Management’s Response: The new Entellitrak management information system
       deployed in August 2013 provides enhanced and accurate tracking capabilities for the list
       of active agencies, reports, and related documents. Complete agency files are now
       monitored and audited as part of the quality review process to ensure proper inclusion of
       all required documents.




                                                                                         Page 16
                              The Office of Safeguards Should Improve
                        Management Oversight and Internal Controls to Ensure
                         the Effective Protection of Federal Tax Information


                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Office of Safeguards effectively provides
oversight of agencies that receive FTI. To determine the effectiveness of the oversight of
agencies, we interviewed management, observed two on-site agency reviews, obtained the
Office’s annual reports to Congress, and reviewed policies on background investigations of
agencies that receive FTI, information technology security test plans, and the Office’s agency
files of report documents.
To accomplish our objective, we:
I.      Evaluated the Office’s procedures and determined its adequacy in protecting FTI.
        A. Conducted walkthroughs of two agencies that receive FTI.
        B. Reviewed the guidance used by the Office and compared it to I.R.C. § 6103(p)(4) to
           determine whether it is consistent with the law.
        C. Reviewed Government criteria and compared it to Publication 1075, Tax Information
           Security Guidelines for Federal, State, and Local Agencies, and other additional
           guidance the Office uses to identify internal controls that would ensure adequate
           protection of FTI.
        D. Determined whether all agencies that receive FTI are reviewed at least once every
           three years in accordance with IRM 11.3.36 by comparing the Office’s list of
           agencies that receive FTI to the most recent three-year on-site review schedule.
II.     Determined whether the Office adequately monitored the agencies that receive FTI.
        A. Through discussions with management, determined how the Office tracks and
           controls the documents received from agencies.
        B. Conducted a statistical sample1 of 50 agencies from a population of 280 agencies that
           received FTI in Fiscal Year 2013. We determined the Office’s maintenance and
           timeliness of the agencies’ report documents issued to and submitted by the agencies.
           We reviewed agencies that had an on-site review from the Office conducted in Fiscal
           Years 2011, 2012, or 2013 and did not identify any agencies that were reviewed more
           than once during the three-year cycle. We determined whether report documents the


1
  A contract statistician assisted with developing our sampling plans and projections. We selected a statistical
sample because we wanted to estimate the total number of agencies for which report documents were missing and/or
reviewed or received untimely.
                                                                                                       Page 17
                              The Office of Safeguards Should Improve
                        Management Oversight and Internal Controls to Ensure
                         the Effective Protection of Federal Tax Information


            Office receives from the agencies are kept up to date in its databases and obtained
            timely. We projected two-sided 95 percent confidence intervals for the population
            exception rate and the population number of exception agencies using a pass or fail
            methodology.
        C. We reviewed the SPRs and the SARs for the random statistical sample of 50 agencies
           from Step II.B. to determine maintenance and timeliness of reviews and receipt of the
           reports.
        D. Reviewed interim reports and final reports for the random statistical sample of
           50 agencies from Step II.B. to determine maintenance and timeliness of issuance.
        E. Reviewed CAP reports for the random statistical sample of 50 agencies from
           Step II.B. to determine maintenance and timeliness of reviews and receipt of the
           reports.
III.    Conducted a random sample2 of 15 agencies from a population of 62 agencies that
        received FTI in Fiscal Year 2013. We requested each agency’s background investigation
        policies and procedures. We reviewed policies and procedures for the employee
        background investigations conducted by 15 agencies to determine consistency with the
        IRS’s background policies and procedures for employees with access to FTI.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s policies, procedures,
and practices for providing oversight to agencies that receive FTI in accordance with
I.R.C. § 6103(p)(4). We evaluated these controls by interviewing management and reviewing
agencies’ policies on background investigations, information technology security test plans, and
the Office’s agency files and report documents.




2
 We used a random sample to ensure that each agency had an equal chance of being selected, which enabled us to
obtain sufficient evidence to support our results.
                                                                                                       Page 18
                          The Office of Safeguards Should Improve
                    Management Oversight and Internal Controls to Ensure
                     the Effective Protection of Federal Tax Information


                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
John Ledford, Audit Manager
Chanda Stratton, Lead Auditor
Ryan Perry, Senior Auditor
Anthony Morrison, Auditor
Mike Mohrman, Senior Information Technology Specialist




                                                                                     Page 19
                         The Office of Safeguards Should Improve
                   Management Oversight and Internal Controls to Ensure
                    the Effective Protection of Federal Tax Information


                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Director, Privacy, Governmental Liaison, and Disclosure OS:P
Director, Governmental Liaison, Disclosure, and Safeguards OS:P:GLDS
Director, Safeguards OS:P:S
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Chief Counsel CC
National Taxpayer Advocate TA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Privacy, Governmental Liaison and Disclosure OS:P:PGLD
       Director, Governmental Liaison, Disclosure and Safeguards OS:P:GLDS




                                                                               Page 20
                               The Office of Safeguards Should Improve
                         Management Oversight and Internal Controls to Ensure
                          the Effective Protection of Federal Tax Information


                                                                                               Appendix IV

                                     Glossary of Terms

              Term                                                   Definition
Affordable Care Act                The Patient Protection and Affordable Care Act of 20101 and the
Legislation                        Health Care and Education Reconciliation Act of 20102 are
                                   collectively referred to as the ACA. In March 2010, President
                                   Obama signed the ACA into law. The legislation seeks to provide
                                   more Americans with access to affordable health care, enforce
                                   patient/consumer protections, and provide Government subsidies
                                   for people who cannot afford insurance.
Catastrophic                       The most serious deficiency identified during on-site reviews.
                                   Agencies must correct this type of deficiency within three months
                                   of the on-site review closing conference.
Electronic Disclosure              Used by the Office of Safeguards prior to the implementation of
Information Management             the Entellitrak database system for tracking and controlling, work
System                             planning, and management reporting.
Entellitrak                        Integrated system used to capture, track, and manage data related
                                   to agencies that receive FTI. The Office of Safeguards
                                   implemented Entellitrak in August 2013. It combines the
                                   functionality of the former multiple software applications the
                                   Office of Safeguards used into a single integrated solution which
                                   will more efficiently support and manage the increased business
                                   needs of the Office of Safeguards.
Federal Tax Information            Confidential tax information reported to the IRS and synonymous
                                   with tax returns and return information.
Fiscal Year                        Any yearly accounting period, regardless of its relationship to a
                                   calendar year. The Federal Government’s fiscal year begins on
                                   October 1 and ends on September 30.




1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  Pub. L. No. 111-152, 124 Stat. 1029. (See Affordable Care Act, infra).
                                                                                                          Page 21
                             The Office of Safeguards Should Improve
                       Management Oversight and Internal Controls to Ensure
                        the Effective Protection of Federal Tax Information



              Term                                       Definition
Internal Revenue Code        Section of the I.R.C. that provides safeguard regulations governing
Section 6103(p)(4)           confidentiality of FTI for agencies that receive FTI.
Internal Revenue Manual      Section of the IRS’s IRM that is dedicated to the Office of
Section 11.3.363             Safeguards to provide procedural and operational supervision for
                             its staff.
IRS Publication 1075, Tax    Provides FTI security guidelines for Federal, State, and local
Information Security         agencies required to establish procedures to ensure the adequate
Guidelines for Federal,      protection of FTI received.
State, and Local Agencies
National Institute of        Provides standards and guidelines for information security,
Standards and Technology     including minimum requirements for Federal information
Special Publication          technology systems.
800-53, Recommended
Security Controls for
Federal Information
Systems and
Organizations4
SharePoint Site              Used by the Office of Safeguards prior to the implementation of
                             the Entellitrak database system for maintaining report documents
                             related to the Office’s reviews of agencies that receive FTI.




3
    Dated Aug. 2008.
4
    Dated Aug. 2009.
                                                                                           Page 22
            The Office of Safeguards Should Improve
      Management Oversight and Internal Controls to Ensure
       the Effective Protection of Federal Tax Information


                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 23
      The Office of Safeguards Should Improve
Management Oversight and Internal Controls to Ensure
 the Effective Protection of Federal Tax Information




                                                   Page 24
      The Office of Safeguards Should Improve
Management Oversight and Internal Controls to Ensure
 the Effective Protection of Federal Tax Information




                                                   Page 25
      The Office of Safeguards Should Improve
Management Oversight and Internal Controls to Ensure
 the Effective Protection of Federal Tax Information




                                                   Page 26
      The Office of Safeguards Should Improve
Management Oversight and Internal Controls to Ensure
 the Effective Protection of Federal Tax Information




                                                   Page 27
